            U.S. Department of
                                                    Memorandum
            Transportation
            Office of the Secretary
            of Transportation
            Office of Inspector General


Subject:   Audit Announcement – Audit of the Office of the             Date:    June 1, 2005
           Assistant Secretary for Administration Spending
           Priorities, Project No. 05F3012F000

  From:                                                             Reply to
           Theodore Alves                                           Attn. of:   JA-20
           Assistant Inspector General for Financial
            and Information Technology Audits

    To:    Assistant Secretary for Administration

            In response to a request from the Senate Subcommittee on Transportation,
            Treasury and General Government, Committee on Appropriations, we are
            initiating an audit of spending priorities, budget justifications, and the mission of
            the Office of the Assistant Secretary for Administration.

            Our audit objectives will be to determine if the Office of the Assistant Secretary
            for Administration (1) has adequate support for budget requests, including funds to
            operate the Working Capital Fund, (2) supports DOT operations commensurate
            with the Office’s mission, and (3) properly accounts for Working Capital Fund
            resources. Particularly, we will focus on the activities of the Office of Facilities
            and Transportation, the Office of the Senior Procurement Executive, and the
            Office of Information Services.

            We will consider the results of the audit of the FY 2005 Working Capital Fund
            Financial Statements, and agreed-upon procedures performed by Williams, Adley
            and Company, LLP. We plan to begin our work in early June. We will contact
            the audit liaison to schedule an entrance conference date to discuss the planned
            audit. If you have any questions, please contact Earl Hedges, Program Director, or
            Mary Smothers, Project Manager, at 410-962-3612.

                                                       #

            cc: Martin Gertel
